OFFICE OF INSPECTOR GENERAL

             Audit Report

 Audit of the Railroad Retirement Board’s
Internal Controls over Widow(er) Annuities


              Report No. 13-09
               July 31, 2013




 RAILROAD RETIREMENT BOARD
                               EXECUTIVE SUMMARY
The Office of Inspector General (OIG) for the Railroad Retirement Board (RRB)
conducted an audit of internal controls over widow(er) annuities. The audit objective
was to determine if internal controls were adequate to ensure the accuracy of benefit
payments awarded to widow(er)s.

Findings

Internal controls are not sufficient to ensure that widow(er) annuities are accurate. Our
review of a statistical sample of 105 widow(er) annuity awards identified 5 sample cases
that contained a payment error for the actual rate or for the period paid. Based on our
projection, we estimate the monetary impact of unidentified improper payments to be
approximately $2.6 million.

Documentation to support eligibility for widow(er) annuities is not always maintained in
the RRB’s imaging system. We were unable to verify the widow(er) annuity entitlement
in 65 of 105 sample cases because the RRB did not always retain documentary
evidence supporting proofs necessary to determine eligibility for a widow(er) annuity.
Instead, the RRB relied on dates transcribed from the proofs and entered into the
APPLE system. Proof information transcribed into an electronic record by a single
individual without secondary review is not sufficient documentation to verify eligibility to
a widow(er) annuity. Based on our projection, there could be a total of 4,465 cases
without all of the supporting documentation.

The proper management official is not being held accountable for the agency’s
management control activities as related to the survivor application proof process.
Although these control activities are now performed by Field Service, they are currently
included in the Office of Programs’ assessable unit which was appropriate when Field
Service was part of the Office of Programs. Field Service became a separate bureau in
May 2012 when the Board Members approved a change in the agency’s organizational
structure related to its nationwide network of 53 field offices.

Key Recommendations

We recommend that agency management:

   •   take action for the error cases cited above to correct the annuity beginning dates,
       payment amounts, and to establish overpayments and/or issue accruals when
       necessary;
   •   improve internal controls;
   •   determine if there are similar error cases and take all corrective action;
   •   provide additional training;
   •   revise procedures to require the retention of scanned copies of needed proofs in
       the RRB’s claim folder system;

                                              i
   •   obtain and retain the copies of proofs to verify the eligibility of the widow(er)
       annuities for the 65 error cases and determine if verification of eligibility should
       be expanded to the universe of widow(er) annuities processed using proof data
       transcribed in the APPLE system; and
   •   establish a separate assessable unit for Field Service’s control activities related
       to the survivor widow(er) annuity application and proof process to ensure that the
       proper management official is accountable for these control responsibilities.

Management Responses

The Office of Programs agreed to take corrective actions for the error cases involving
annuity beginning dates, payment amounts, and to establish overpayments and/or issue
accruals when necessary. The Office of Programs stated that they will conduct
refresher training and periodically perform data comparisons to address the identified
internal control weaknesses. The Office of Programs stated that they have already run
a query but did not find any additional cases where the annuity beginning date is prior to
the employee’s date of death.

The Office of Programs and Field Service disagreed with the recommendations
pertaining to revising procedures requiring the retention of scanned copies of proofs.
They stated that the current method of transcription has been in place for many years
and has proven to be sufficient and reliable. The Office of Programs and Field Service
also disagreed with the recommendations pertaining to obtaining and retaining copies of
proofs for the 65 error cases and did not agree with our recommendation to determine if
the verification of eligibility should be expanded to the universe of widow(er) annuities
processed using proof data transcribed in the APPLE system. The Office of Programs
and Field Service also stated that they believed that the 65 cases should not have been
characterized as errors because they were handled according to procedure.

The Management Control Review Committee did not concur with our recommendation
to establish a separate assessable unit for Field Service’s control activities related to the
survivor widow(er) annuity application and proof process. They stated that the
responsible official for Survivor Benefits-Initial assessable unit should continue to
document and test the controls at this time.

The full text of agency management‘s response is included in this report as Appendix IV
and Appendix V.

RRB-OIG’s Comments on Management’s Responses

In regard to the recommendations that the Office of Programs and Field Service
disagreed with, we do not agree with management’s statement that transcribing the
proof data is sufficient and reliable. We maintain that proofs should be obtained and
retained for all error cases identified and for the universe of widow(er) annuities
processed that only used transcribed proof data. Proof retention would provide clearly


                                              ii
documented evidence to ensure that these annuitants are eligible and as a means to
detect potential fraud. Proof retention is needed to address the agency’s goal of serving
as responsible stewards for customer trust funds and agency resources and to ensure
that the correct amount of benefits are paid to the right people. While management
disagrees that the 65 cases should be cited as errors, we were unable to verify eligibility
for the 65 annuitants and as such, these cases have been cited as errors.

In regard to the recommendation that the Management Control Review Committee did
not concur with, we maintain that the responsible official for Survivor Benefits is too far
removed from Field Service’s organizational structure to be knowledgeable about and
kept informed of internal control issues related to the survivor application proof process
conducted in the 53 Field Offices.




                                             iii
                                        TABLE OF CONTENTS

EXECUTIVE SUMMARY

INTRODUCTION
 Background .................................................................................................................. 1
 Audit Objective ............................................................................................................. 2
 Scope ........................................................................................................................... 2
 Methodology ................................................................................................................. 2

RESULTS OF AUDIT
 Inaccurate Widow(er) Annuities.................................................................................... 4
   Incorrect Annuity Beginning Dates ............................................................................ 5
      Incorrect Date of Death .......................................................................................... 5
      Incorrect Beginning Date for Widow’s Annuity........................................................ 5
   Incorrect Use of the Employee’s Military Service ...................................................... 6
   Manual Input Error..................................................................................................... 6
      Recommendations ................................................................................................. 6
      Management’s Response ....................................................................................... 7
 Required Proofs are Not Adequately Retained ............................................................ 8
      Recommendations ................................................................................................. 9
      Management’s Response ....................................................................................... 9
      RRB-OIG’s Comments on Management’s Response............................................. 9
 Recognition of the Proper Management Official for Management Control Activities .. 10
      Recommendation ................................................................................................. 11
      Management’s Response ..................................................................................... 11
      RRB-OIG Comments on Management’s Response ............................................. 11

APPENDICES
 Appendix I – Statistical Sampling Methodology and Results ...................................... 12
 Appendix II – Status of Inaccurate Widow(er) Annuity Cases Identified During the
 Audit ........................................................................................................................... 15
 Appendix III – Estimated Financial Impact of Inaccurate Widow(er) Annuity Cases .. 16
 Appendix IV – Management Response – Office of Programs and Field Service ........ 17
 Appendix V – Management Response – Management Control Review Committee ... 21

                                                                iv
                                   INTRODUCTION

This report presents the results of the Office of Inspector General’s (OIG) audit of the
Railroad Retirement Board’s internal controls over widow(er) annuities.


Background

The Railroad Retirement Board (RRB) is an independent agency in the executive
branch of the Federal government. The RRB administers the retirement/survivor and
unemployment/sickness insurance benefit programs for railroad workers and their
families under the Railroad Retirement Act (RRA) and the Railroad Unemployment
Insurance Act (RUIA). In fiscal year (FY) 2011, the RRB paid over $2 billion to
128,100 widow(er)s. In addition, the RRB awarded 6,100 aged widow(er) annuities with
an average monthly annuity of $1,789.

The RRB’s Field Service is responsible for developing the widow(er) application which
includes securing the necessary proofs (documentary evidence including employee’s
death, marriage, and widow’s date of birth) to determine entitlement. Field Service uses
the Application Express System (APPLE) for their responsibilities in the process.
APPLE is an online computer system that automates the processing of applications for
railroad retirement and survivor benefits. After the application processing is completed
by Field Service, the payment processing portion of the benefit is initiated. APPLE is
used to adjudicate the benefit payment without manual intervention whenever possible.
When Field Service staff determines that manual intervention is needed or APPLE
cannot process the benefit payment, the case is referred to the Office of Programs.

Office of Programs claims examiners are responsible for manually processing some
widow(er) annuities to ensure the timeliness and accuracy of the payment. Manual
processing actions include making jurisdiction determinations for payment of widow(er)
annuities and, when necessary, transferring jurisdiction to the Social Security
Administration when it is determined that the RRB does not have jurisdiction. Claims
examiners are also responsible for other processing actions which include determining
the correct beginning date and annuity rate for widow(er) annuities. The Office of
Programs uses the Survivor Payments System (SURPASS) to process widow(er)s
annuities. SURPASS is an on-line adjudication program used for calculating and paying
survivor recurring and one-payment only awards.




                                             1
Pursuant to the provisions of the Federal Managers’ Financial Integrity Act of 1982, the
Government Accountability Office (GAO) has issued “Standards for Internal Control in
the Federal Government.” Internal control is an integral component of an organization’s
management that provides reasonable assurance concerning the effectiveness and
efficiency of operations, reliability of financial reporting, and compliance with applicable
laws and regulations. The guidance provides the overall framework for establishing and
maintaining internal control and for identifying and addressing major performance and
management challenges and areas at greatest risk of fraud, waste, abuse and
mismanagement.

The RRB created the Management Control Review Committee to establish and oversee
a process to identify and eliminate management control weaknesses. That committee
ensures the accuracy and completeness of reports on management controls and
material weaknesses, and also ensures the adequacy of corrective action plans.

The RRB’s strategic plan includes an objective to ensure the accuracy and integrity of
benefit programs. To meet the larger goal of serving as responsible stewards for our
customers’ trust funds and agency resources, the correct amount of benefits are to be
paid to the right people. This review directly addresses that key area of performance.


Audit Objective

The audit objective was to determine if internal controls were adequate to ensure the
accuracy of benefit payments awarded to widow(er)s.


Scope

The audit scope was limited to widow(er) benefit awards processed during FY 2011.


Methodology

To accomplish the audit objective, we:

   •   identified criteria from GAO’s “Standards for Internal Control in the Federal
       Government” and agency procedures;
   •   reviewed applicable laws and regulations;
   •   reviewed agency documentation;
   •   identified, tested and assessed internal controls;
   •   selected a statistical sample of widow(er) annuitants and tested the internal
       controls over benefit payment accuracy; and
   •    interviewed agency management and staff.

                                             2
To assess the reliability of the survivor data provided in the master benefit file
download, we:

   •   compared data elements in the survivor master benefit file (MBF) to the
       corresponding data in the applicable Payment Rate Entitlement History (PREH)
       screens;
   •   interviewed OIG information technology staff about potential inconsistencies
       between the MBF download and the PREH screens;
   •   reviewed the survivor MBF data dictionary; and
   •   resolved potential discrepancies between the survivor MBF download and the
       PREH screens with RRB personnel.

We determined that the downloaded data was sufficiently reliable for the purposes of
this audit.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives. We conducted our fieldwork at the RRB’s headquarters in Chicago,
Illinois from November 2011 through May 2012 and January 2013 through April 2013.




                                              3
                                RESULTS OF AUDIT

Our audit determined that internal controls over widow(er) annuities were not operating,
effective, or adequate to ensure the accuracy of widow(er) annuities. Our statistical
sample of 105 cases identified 5 cases with inaccurate widow(er) annuities. Based on
our projection, we estimate the monetary impact of unidentified improper payments to
be approximately $2.6 million. Our audit also found that the agency did not always
retain documentation to support widow(er) eligibility for railroad benefits in 65 cases.
Based on our projection, there could be a total of 4,465 cases without all of the
supporting documentation. In addition, we found that the Director of Field Service has
not been held accountable for survivor application proof process controls.

Internal controls could be strengthened in the following areas:

   •   improving internal controls to ensure the accuracy of widow(er) annuities;
   •   maintaining proofs to verify entitlement; and
   •   ensuring that the proper management officials are held accountable for
       management control responsibilities performed by their staff and that the
       agency’s documentation for management controls reflects such accountability.

The details of our findings and recommendations for corrective action follow. The full
text of management responses is presented as Appendix IV and Appendix V in this
report.


Inaccurate Widow(er) Annuities

Internal controls are not sufficient to ensure that widow(er) annuities are accurate. Our
review of a statistical sample of 105 widow(er) annuity awards identified 5 sample cases
that contained a payment error for the actual rate or for the period paid. The five cases
are classified as follows:

   •   two cases with incorrect annuity beginning dates;
   •   two cases with incorrect use of the employee’s military service; and
   •   one case with a manual input error that was not detected.

Control activities are an integral part of an entity’s planning, implementing, reviewing,
and accountability for stewardship of government resources and achieving effective
results. Control activities occur at all levels and functions of the entity including
activities such as approvals and authorizations which help provide evidence that all
transactions are completely and accurately recorded. Agency procedures require that
authorizers determine the correctness, accuracy and completeness of the adjudicative
actions taken by the claims examiner.



                                            4
These errors were caused by an inadequate review and approval process and
insufficient examiner action taken in the handling of system generated referrals.
To date, the RRB has corrected three of the five error cases which had resulted in
improper payments. Projecting the improper payments from these cases to the
population could result in an estimated $2.6 million in improper payments (see
Appendices I through III for more details).

The details of the error cases that we identified are described as follows.

Incorrect Annuity Beginning Dates

     Incorrect Date of Death

In one case, the employee’s notice of death had been erroneously entered into the
RRB’s APPLE system as February 19, 2011, when the actual date of death was
April 19, 2011. The incorrect date of death that was entered resulted in an incorrect
beginning date for the widow’s annuity. The beginning date of a widow(er) annuity
cannot occur before the month and the year of an employee’s death.

Dates of death are recorded in two separate screens in the APPLE system. One screen
captures the notification of death which initiates the processing of the widow annuity. A
different APPLE screen captures the transcribed date of death from a proof reviewed by
Field Service staff. After the widow’s annuity was processed with the incorrect
beginning date, Field Service entered the correct date of death and contacted the Office
of Programs on May 4, 2011 to report the correct date of death. However, no action
was taken to correct the widow’s annuity beginning date or to calculate and collect the
resulting overpayment.

The APPLE system generated a referral indicating the dates of death did not agree.
The Office of Programs assigned the referral for examiner review, but the necessary
corrective action was not taken. As a result, the widow was overpaid by two months.

      Incorrect Beginning Date for Widow’s Annuity

In another case, per a court’s ruling maintained in the RRB’s records, the widow was no
longer recognized as the legal guardian for the deceased employee’s disabled adult
child as of October 29, 2010. As a result, the widow was no longer entitled to receive a
benefit based on having the disabled adult child in her care. Therefore, her annuity
should have been converted to an aged widow annuity as of October 1, 2010. Instead,
the RRB converted her annuity as of December 1, 2010.

Under the RRA, a mother’s entitlement to an annuity based on having the deceased
employee’s child in care, ends on the last day of the month preceding the month in
which the child is no longer in care. 1 As a result, the widow was overpaid for the
months of October and November 2010.
1
    45 United States Code § 231d(c)(6)(C)

                                             5
Incorrect Use of the Employee’s Military Service

We identified two cases with payment errors caused by an incorrect use of the
deceased employee’s military service in the widow annuity calculation. The way military
service was used for the employee is how it should be used for the widow’s annuity
calculation. In one case military service was not used consistently in the calculation of
the widow’s annuity. In the other case, a second period of military service was not
considered in the calculation of the widow’s annuity. These errors were the result of
examiner and authorizer mishandling.

The RRA provides service months and compensation credit toward the Tier II
component of retirement benefits for employees who leave railroad work and perform
active duty military service in the same year or in the next calendar year. 2 A credited
month of military service is considered to be the same as though the employee
performed regular railroad work that month. For widow(er) annuities, military service
must be used in the Tier II computation in the same way that it was included in the
employee annuity.

These errors resulted in incorrect payments. Other errors of this type may exist in the
population of widow(er) annuities.

Manual Input Error

In another case, a manual entry for the Tier II component entered by the claims
examiner into SURPASS was incorrect. This error went undetected during the
authorization process.

The basis for the Tier II portion of the widow(er) annuity should match the supporting
documentation. As a result, the widow’s Tier II was underpaid.

Recommendations:

We recommend that the Office of Programs:

     1. take action for the error cases cited above to correct the annuity beginning
        dates, payment amounts, and to establish overpayments and/or issue accruals
        when necessary;

     2. improve internal controls over examiner actions taken to address date of death
        referrals generated from the APPLE system;



2
 Regular railroad retirement annuities are calculated under a two-tier formula. The first tier is based on
railroad retirement credits and any social security credits an employee acquired. The second tier is
based on railroad retirement credits only, and may be compared to the retirement benefits paid over and
above social security benefits to workers in other industries.

                                                     6
    3. determine if there are other cases where the widow(er) annuity beginning date is
       prior to the employee’s date of death and take all corrective action;

    4. provide additional training on the correct use of military service for the
       calculation of widow(er) annuities;

    5. improve internal controls to detect discrepancies between the service months
       recorded in the survivor’s payment record and the employee’s payment record
       to ensure that the widow(er) annuity is computed correctly; and

    6. improve internal controls to ensure the effectiveness of the review and approval
       process.

Management’s Response

The Office of Programs concurred with Recommendation 1 and stated that they are in
the process of finalizing the case corrections.

In regard to Recommendation 2, the Office of Programs stated that they will conduct
refresher training for survivor claims examiners on the proper handling of date of death
referrals produced by the APPLE system.

The Office of Programs concurred with Recommendation 3 and stated that they have
run a query against the widow(er) universe which did not identify any additional cases
where the widow(er) annuity beginning date is prior to the employee’s date of death.

The Office of Programs concurred with Recommendation 4 and stated that they will
conduct refresher training for survivor claims examiners on the correct use of military
service for the calculation of widow(er) annuities.

For Recommendation 5, the Office of Programs stated that they have periodically
performed the recommended comparison in the past as staffing allowed and will do so
again.

In regard to Recommendation 6, the Office of Programs stated that they will conduct
refresher training to ensure the effectiveness of the review and approval process for all
survivor examiners who review and approve claims.




                                             7
Required Proofs are Not Adequately Retained

Documentation to support eligibility for widow(er) annuities is not always maintained in
the RRB’s imaging system. We were unable to verify the widow(er) annuity entitlement
in 65 of 105 sample cases because the RRB did not always retain documentary
evidence supporting proofs necessary to determine eligibility for a widow(er) annuity.
Instead, the RRB relied on dates transcribed from the proofs and entered into the
APPLE system. Proof information transcribed into an electronic record by a single
individual without secondary review is not sufficient documentation to verify eligibility to
a widow(er) annuity.

In 40 of the 105 sample cases, the RRB scanned and retained the proof documents or
had retained sufficient proof evidence in physical claim files.

The specific type of proofs required to verify a widow(er) annuity depends on the type of
application being filed and the status of the person filing. Certain proofs are always
required by the RRB to establish eligibility to widow(er) annuities. These include proof
of the death of the railroad employee, proof of the age of the employee and the
widow(er) applicant, and proof of marriage to the railroad employee. Other proofs are
also sometimes required for a widow(er) annuity including proof of divorce, proof of
remarriage, proof of the railroad employee’s military service, and proof of a child’s
relationship to the railroad employee.

Office of Management and Budget Circular A-123, Management’s Responsibility for
Internal Control, requires that, “[d]ocumentation for internal control, all transactions, and
other significant events is readily available for examination.”

RRB procedures do not require scanning of proofs into the RRB’s imaging system.
Specifically, the procedures state for original documents (proofs), “[c]reate an on-line
transcript (APPLE) of the evidence, and return it as soon as possible to the person who
presented it.” Due to this option, we found inconsistencies in the field offices’ practices
in the maintenance of the proofs. There is also no requirement for the system or RRB
claims examiners to re-verify entitlement evidence for widow(er) annuitants previously
entitled to RRB benefits.

The RRB’s internal controls over required proofs are weakened when proofs are
transcribed to the APPLE system without retaining copies of the original proof
documents, as errors can occur during data entry. In addition, failure to maintain copies
of the original proof documents reduces audit trails, increases fraud risk, and potentially
compromises the integrity of RRB trust funds.

When projecting the 65 cases cited in this finding to the sample population of 7,212
widow(er) benefit awards processed in FY 2011, there could potentially be 4,465 cases
without all of the necessary supporting documentary evidence (see Appendix I for more
details).



                                              8
Recommendations:

We recommend that the Office of Programs and Field Service:

    7. revise procedures to require the retention of scanned copies of needed proofs in
       the RRB’s claim folder system;

    8. revise procedures to require the review of proofs for widow(er) annuity
       applicants who had previously received an RRB annuity;

    9. obtain and retain the copies of proofs to verify the eligibility of the widow(er)
       annuities for the 65 error cases cited above; and

   10. use the results from Recommendation 9 to determine if verification of eligibility
       should be expanded to the universe of widow(er) annuities processed using
       proof data transcribed in the APPLE system.

Management’s Response

The Office of Programs and Field Service disagreed with Recommendations 7 through
10. For Recommendation 7, the Office of Programs and Field Service stated that the
current method of proof transcription has been in place for many years and has proven
to be sufficient and reliable. For Recommendations 8, 9 and 10, the Office of Programs
and Field Service stated that there is no valid business reason to require widow(er)s
who have previously qualified for spouse benefits to resubmit the same proofs. The
Office of Programs and Field Service also stated that they believed that the 65 cases
should not have been characterized as errors because they were handled according to
procedure.

RRB-OIG’s Comments on Management’s Response

In regard to Recommendation 7, we disagree with management’s response that the
current method of proof transcription has been proven to be sufficient and reliable.
Without a comparison of the transcribed data to the original or scanned proofs,
accuracy of the proof data cannot be determined. Revised procedures to require
retention of scanned copies are needed to prevent potential fraud for the protection of
agency trust funds.

In regard to Recommendation 8, management’s response regarding the resubmission
of proofs only addresses spouses who were previously entitled annuitants. Other
previously entitled annuitants include young widows, whose entitlement could have
been terminated prior to entitlement to aged widow benefits. We maintain that the
resubmission of proofs not previously retained serves to protect agency trust funds.




                                             9
In regard to Recommendation 9, we maintain that the proofs should be obtained and
retained for the 65 cases to provide clearly documented evidence to ensure that these
annuitants are eligible and as a means to detect potential fraud. While the Office of
Programs and Field Service disagree that the 65 cases should be cited as errors
because agency procedure is being followed, we determined that agency procedure is
not sufficient. We were unable to verify eligibility for the 65 annuitants and as such,
these cases have been cited as errors.

In regard to Recommendation 10, we maintain that proof data should also be obtained
and retained for other annuitants to ensure their eligibility to widow(er) annuities. This is
needed to address the agency’s goal of serving as responsible stewards for customer
trust funds and agency resources and to ensure that the correct amounts of benefits are
paid to the right people.


Recognition of the Proper Management Official for Management Control Activities

The proper management official is not being held accountable for the agency’s
management control activities as related to the survivor application proof process.
Although these control activities are now performed by Field Service, they are currently
included in the Office of Programs’ assessable unit which was appropriate when Field
Service was part of the Office of Programs. Field Service became a separate bureau in
May 2012 when the Board Members approved a change in the agency’s organizational
structure related to its nationwide network of 53 field offices. The Field Service
component now reports directly to the Board Members.

The RRB’s Management Control Guide states that an assessable unit should perform or
support one or more significant missions such as benefit payments, overpayment
recoveries, program and trust fund integrity, and contribution collections. Assessable
units encompass all agency activities that can impact the agency’s mission.

Assessable units should be defined only if:

    •   the potential for material weakness exists within it; or
    •   it can precipitate a material weakness in which it interacts; and
    •   the material weakness can be defined in terms of mission accomplishment,
        waste, fraud, abuse, misrepresentation of financial condition, or loss of public
        confidence.

Responsible officials are managers who are accountable for the operations of an
assessable unit. They perform annual certifications and periodic management control
reviews of their assessable units; make the first level determination of whether a
material weakness exists; prepare and implement corrective action plans as needed;
and report on each of these activities.



                                              10
The Executive Committee, in conjunction with the Management Control Review
Committee, provides the Board Members with reasonable assurance that effective
management controls are in place and assist managers in achieving RRB management
control objectives.

The Management Control Review Committee has not recognized the need for a
separate assessable unit and a change in the responsible management official since
these organizational changes were made.

A material weakness could go undetected because these control activities are not being
certified by the proper management official. The current responsible official in the Office
of Programs may not have the appropriate involvement with and oversight for these
activities since they are no longer responsible for Field Service.

Recommendation:

We recommend that the Management Control Review Committee:

   11. establish a separate assessable unit for Field Service’s control activities related
       to the survivor widow(er) annuity application and proof process to ensure that
       the proper management official is accountable for these control responsibilities.

Management’s Response

The Management Control Review Committee did not concur with Recommendation 11.
They stated that both Office of Programs and Field Service directors, who are members
of the Executive Committee, identify and ensure correction of systematic weaknesses
relating to their respective functions. They also stated that the responsible official for
the Survivor Benefits –Initial assessable unit should continue to document and test
controls at this time.

RRB-OIG Comments on Management’s Response

We disagree with management’s decision that the responsible official for Survivor
Benefits should continue to document and test the control activities related to the
survivor application proof process. OMB Circular A-123, Management’s Responsibility
for Internal Controls, states that the assessment of internal control can be performed
from a variety of information sources including management knowledge gained from the
daily operation of agency programs and systems. It also states that the chain of
command should be followed when internal control deficiencies are discovered and
reported. We maintain that the responsible official for Survivor Benefits is too far
removed from Field Service’s organizational structure to be knowledgeable about and
kept informed of internal control issues related to the survivor application proof process
conducted in the 53 Field Offices. We reiterate that a material weakness could go
undetected under this internal control reporting structure.



                                            11
                                                                              APPENDIX I
                     SAMPLING METHODOLOGY AND RESULTS
                            STATISTICAL SAMPLING

This appendix represents the methodology and results of our statistical sampling test of
internal controls for widow(er) annuities.

Sample Objective

Our sampling objective was to determine:

   1. whether internal controls as related to widow(er) annuities were operating and
      effective; and
   2. if internal controls provided for the accurate processing of widow(er) annuities.

Scope

We selected the sample from a population of 7,212 survivor records for the period
October 1, 2010 through September 30, 2011 from the master benefit file.

Review Methodology

We used Attribute Sampling – One Step Acceptance using a 90% confidence level and
5% critical error rate which directed a 105 case sample. The threshold for acceptance
was two errors. Two errors would permit the auditors to infer, with a 90% confidence
level, that controls were adequate to ensure the accuracy of widow(er) annuity rates.

Accuracy

We verified whether the eligibility requirements were met, including verification that the
required proofs were obtained and maintained, and that other necessary requirements
were met. We tested for accuracy by determining if the annuity amount paid was
correct by comparing the annuity payment information generated from SURPASS to
supporting documentation maintained by the RRB for each case.




                                            12
                                                                                                       APPENDIX I
                         SAMPLING METHODOLOGY AND RESULTS
                                STATISTICAL SAMPLING

Results of Review

We used a statistical sample of 105 widow(er) cases for the following attributes related
to internal controls for widow(er) annuities.




                                                                           Exceptions
                                                                                        Exceptions


                                                                                                     Exceptions


                                                                                                     Population
                                                                                                     to Sample
                                                                                                     Projected
                                                                                                     Potential
Attributes Identified for Internal Control Testing




                                                                  Tested


                                                                           Non-
Proper Proofs
 The proper proofs were maintained                                105       40          65           4,465

Sufficient Railroad Service Months
 Sufficient railroad service months for the                       105      105             0            0
 deceased employee

Paid the Correct Amount
 Adequate review and approval                                     105      101             4

    Dates in APPLE agree with dates in SURPASS 3                  105      104             1
                      Grand Total                                                          5          343

Proper Segregation of Duties When Applicable
 Award was processed mechanically, or prepared                    105      105             0            0
 and approved by two separate individuals with
 the applicable access privileges for these
 functions.

Proper Documentation to Support the Annuity Rate
 Support for annuity rate maintained                              105      105             0            0

                             Total Exceptions                                           70




3
 This test did not verify the accuracy of the dates entered as the RRB only retained all of the proofs in 40
of the 105 sample cases.

                                                    13
                                                                          APPENDIX I
                    SAMPLING METHODOLOGY AND RESULTS
                           STATISTICAL SAMPLING
Audit Conclusion

Our evaluation of the 105 case statistical sample identified 70 exceptions, which
exceeds the sample acceptance threshold. Of the 70 exceptions, 65 pertained to
whether the eligibility requirements were met, and 5 pertained to the payment
entitlement or payment amount. Therefore, we cannot conclude that internal controls
are operating and effective and that they are adequate to ensure accurate widow(er)
annuities.

When projecting the five payment error cases to the population of 7,212 widow(er)
annuitants there could potentially be 343 widow(er) cases with payment errors.




                                          14
                                                                                       APPENDIX II

    STATUS OF INACCURATE WIDOW(ER) ANNUITY CASES IDENTIFIED DURING
                             THE AUDIT

The following table shows the status of inaccurate widow(er) annuity cases that the OIG
identified during the audit.

Type of Error                     Status                      Financial Impact 4

Incorrect Annuity          Pending Correction                 Unknown
Beginning Date – Incorrect Referral for Handling
Date of Death Case         Established


Incorrect Annuity                 Pending Correction          Unknown
Beginning Date – Widow’s          No Referral for
Annuity Case                      Handling Established


Incorrect Use of Employee         Corrected                   Widow was overpaid
Military Service – Not                                        $1,147.74 for the period
Used Consistently                                             September 2010 through
                                                              May 2013.


Incorrect Use of Employee         Corrected                   Widow was underpaid
Military Service – All                                        $458.12 for the period April
Periods Not Included                                          2011 through May 2013.


Manual Input Error Case           Corrected                   Widow was underpaid
                                                              $4,921.20 for the period
                                                              September 2009 through
                                                              May 2013.




4
 The financial impact is unknown in two cases because the agency is in the process of reviewing these
errors.

                                                  15
                                                                                       APPENDIX III

    ESTIMATED FINANCIAL IMPACT OF INACCURATE WIDOW(ER) ANNUITY CASES

The table below shows the estimated financial impact of the inaccurate widow(er)
annuity cases that have been corrected to date and the financial projection for these
cases. The population was 7,212 cases with an error rate of .95% (1/105) for each type
of error. When projected to the population, there would be 69 cases of each type of
error in the population (.95% x 7,212).

The life expectancy for widows at age 65 is 18.7 years (224.4 months) per actuarial
statistics. 5 These errors were discovered by the OIG audit. The total estimated
financial impact provided below assumes that the errors would not have been detected
throughout the duration of the annuity.


Payment Error Category Monthly Financial                              Projected      Financial
                       Financial Impact Over                          Number         Impact of
                       Impact    18.7 Years                           of Error       Estimated Error
                                                                      Cases          Cases 6
Incorrect Use of Military   $ 35.87      $ 8,048.53                        69        $ 552,818.81
Service – Not Used
Consistently;
Total Improper Payment
of $1,147.74
Incorrect Use of Military   $ 18.32      $ 4,112.09                        69        $ 282,441.50
Service – All Periods Not
Included;
Total Improper Payment
of $458.12
Manual Input Error Case; $111.85         $25,098.12                        69        $1,723,882.30
Total Improper Payment
of $4,921.20
             Total Estimated Financial Impact                                        $2,559,142.61


We estimate the monetary impact to be approximately $2.6 million for the known
improper payment amounts.




5
  U.S. Railroad Retirement Board, Bureau of the Actuary, Actuarial Notes - Longevity of Railroad
Retirement Beneficiaries, No. 1-12 (November 2012).
6
  Calculations may not be exact due to rounding.

                                                  16
                                                               Appendix I V



                                                                                FORM G-IISf(l-92)
                       UN ITED STATES
                       G OVERNMENT                             R AILROAD R ETIREMENT B OARD
                                                               July 18, 2013
                       MEMORANDUM



TO:         Diana Kruel
            Assistant Inspector General for Audit

                                                 c  )A

                                                                    cr
FROM:       Ronald Russo
            Director of Policy and Systems
            Through : Martha Barringer         /It®~
                        Director of Programs

                        Daniel Fadden
                        Director of Field Service

SUBJECT: Draft Report- Audit of the Railroad Retirement Board's Internal Controls
         over Widow( er) Annuities



Thank you for the opportunity to comment on this report. We are pleased to see that
the case accuracy rate identified by the audit was slightly better than 95% and that the.
related payment accuracy can be proje~ted at near 99% for annu ities awarded in
FY 2011.                                .


Recommendation   We recommend that the Office of Programs take action for the error
1                cases cited above to correct the annuity beginning dates, payment
                 amounts, and to establish overpayments and/or issue accrua ls when
                 necessary.


Office of        We concur. We are in the process of f inalizing the case corrections
Programs         which we expect to be complete by September 30, 2013.
Response



Recommendation   We recommend that the Office of Programs improve internal controls
2                over examiner actions taken to address date of death referrals
                 generated from the APPLE system.




                                               17
                                                                 Appendix IV


Office of        Office of Programs will conduct refresher training for survivor claims
Programs         examiners on the proper handling of date of death referrals produced
Response
                 by the APPLE system. We will conduct the training by March 31 ,
                 2014.


Recommendation   We recommend that the Office of Programs determine if there are
3                other cases where the widow(er) annuity beginning date is prior to the
                 employee's date of death and take all corrective action


Office of        We concu r. We have run a query against the widow(er) universe and
Programs         did not identify any additional cases with this type of error.
Response


Recommendation   We recommend that the Office of Programs provide additional training
4                on the correct use of military service for the calculation of widow( er)
                 annuities.



Office of        We concur. Office of Programs will conduct refresher training for
Programs         survivor claims examiners on the correct use of military service for the
Response
                 calculation of widow(er) annuities. We will conduct the training by
                 March 31 , 2014.


Recommendation   We recommend that the Office of Programs improve internal controls
5                to detect d!screpancies between the service months recorded in the
                 survivor's payment record and the employee's payment record to
                 ensure that the widow(er)'s annuity is computed correctly.


Office of        The Office of Programs has periodically performed the recommended
Programs         comparison in the past as staffing allowed and will do so again by
Response
                 September 30, 2013.


Recommendation   We recommend that the Office of Programs improve internal controls
6                to ensure the effectiveness of the review and approval process.


Office of        Office of Programs will conduct refresher training to ensure the
Programs         effectiveness of the review and approval process for all survivor
Response
                 examiner who review and approve claims by March 31, 2014.




                                               18
                                                                   Appendi x I V




Recommendation   We recommend that the Office of Programs and Field Service revise
7                procedures to require the retention of scanned copies of needed
                 proofs in the RRB's claim folder system.


Office of        We disagree. The current method of proof transcription has been in
Programs         place for many years and has proven to be sufficient and reliable. No
Response
                 errors are associated with the current procedure. The current method
                 is consistent with agency and government-wide efforts to reduce
                 holdings of personally identifiable infonnation.


Recommendation   We recommend that the Office of Programs and Field Service revise
8                procedures to require the review of proofs for applicants for widow(er)
                 annuities who had previously received an RRB annuity.


Office of        We disagree. There is no valid pusiness reason to requ ire widow(er)s
Programs         who have previously qualified for spouse benefits to re-submit the
Response
                 same proofs. This creates an unnecessary burden on the public.


Recommendation   We recommend that the Office of Programs ahd Field Service obtain
9                and retain the missing proofs to verify the eligibility of the widow(er)'s
                 annuities for the 65 error cases cited above.


Office of        We disagree. See our response to Recommendation #8 above. In
Programs         addition, we believe that the 65 cases should not have been
Response
                 characterized as "errors" because they were handled according to
                 procedure.


Recommendation   We recommend that the Office of Programs and Field Service use the
10               results of from Recommendation #9 to determine if the verification of
                 eligibility should be expanded to the universe of w idow(er) annuities
                 using proof data transcribed in the APPLE system.


Office of        We disagree. See our response to Recommendation #9 above.
Programs
Response




                                                 19
                                                                       Appendix IV



Recommendation   We recommend that the Management Control Review Committee
11               establish a separate assessable unit for Field Service's control
                 activities related to the survivor widow(er)'s annuity application and
                 proof process to ensure that the proper management official is
                 accountable for these control responsibilities.


Office of        D;rected to the Management Control Review Committee.
Programs
Response




Finally, although recommendation #11 is directed to the Management Control Review ·
Committee, it directly impacts the Office of Programs ability to evaluate its performance. The
Office of Programs is responsible for the quality of the benefit adjudication outcomes and, for
that reason, we believe that there should continue to be a single assessable unit with the ·
responsible official in the Office of Programs' Survivor Benefit Division.


cc: Director of Survivor Benefits
    Director of Program Evaluation and Management Services
    Management Control Review Committee




                                                     20
                                                               Appendix V
                                                                                 FOR~! C-ll~f(l-91)
                      UNITED STATES
                      GOV ERNMENT                              R AILROAD RETIREMENT B OARD

                      MEMORANDUM


                                                                         July 25, 2013

TO:               Diana Kruel
                  Assistant Inspector General for Audit

FROM:             Management Control Review Committee

SUBJECT:          Draft Report- Audit of the Railroad Retirement Board's Internal
                  Controls over Widower(er) Annuities


      Thank you for the opportunity to comment on this report. Our comment on the
      recommendation number 11 is as follows:

      We recommend that the Management Control Review Committee establish a
      separate assessable unit for Field Service's control activities related to the
      survivor widow(er)'s annuity application and proof process to ensure that the
      proper management official is accountable for these control responsibilities.

      We do not concur with recommendation 11 . The Board Members delegated the Office
      of Programs (OP) and Field Service (FS) to address all administrative matters
      regarding the division of the two organizations into separate Bureaus. In addition, both
      the OP and FS directors, who are members of the Executive Committee, identify and
      ensure correction of systematic weaknesses relating to their respective functions.

      The OPs' Survivor Benefit Division (SBD) is responsible for processing initial survivor
      benefits timely and accurately. We believe that the responsible official (RO) for
      Survivor Benefits- Initial assessable unit (AU) in the SBD should continue to
      document and test the controls at this time. Also, the RO should work with Field
      Service to review and confirm the interactive controls related to the survivor
      widow(er)'s annuity application and proof process. As part of this review, the
      Responsible Official for the Survivor Benefits- Initial AU should perform a
      management control review in fiscal year 2014 to update and document the
      responsibilities (including the Field Service portion) in its chart of controls, test the
      controls and report its results. An evaluation by the MCRC will be completed at that
      time.




                                                 21
 Draft Report- Audit of the Railroad Retirement Board's                 Appendix V
 Internal Controls over Widower(er) Annuities, continued




       f!v-ff~
 John M. Walter
                                     £L~r:iE
                                        SaiJ{M'ur .
                                               te Charr
                                                                        J..~c~~-
                                                                         4_ .J?&~J&.c~
                                                                        Stev fKlockner
 Chair                                                                  Program Integrity & Evaluation
 Chief of Accounting,                   Altema. Assistant to            Specialist
 Budget and Financial                   Executrvef
                                        Director o Administration
 Management Division


~4:· ;ral~                               ~~~            dtL-             44rJ;t~
 Eric T . Wooden                        Valerie Allen                   Anthony Santangelo
 General Attomey                        Director of Survivor Benefits   Toll-Free Administrator


                                       ~\~i J~~J.
                                        ~rr\t Gilbert
                                        Cnlef Security Offircer




 cc:               George V. Govan, Chief Financial Officer
                   Martha M. Barringer, Director of Programs
                   Daniel Fadden , Director of Field Service
                   Management Control Review Committee




                                                             22
